CERTIFICATE OF SERVICE

I, Stephanie L. Finn, hereby certify that 1 copy of the foregoing Brief in
Opposition to Petition for Writ of Certiorari in In re the Paternity of B.J.M.: Angela
L. Carroll v. Timothy W. Miller was sent via Federal Express Next Day Service to
the U.S. Supreme Court and to the parties listed below, this 11% day of September,
2020:

Brandon M. Schwartz
Michael D. Schwartz
Schwartz Law Firm
600 Inwood Avenue N.
Suite 130

Oakdale, MN 55128
(651) 528-6800
Counsel for Petitioner

All parties required to be served has been served.

I further declare under penalty of perjury that the foregoing is true and
correct. This certificate is executed on September 11, 2020.

 

Herrick & Hart, S.C.
116 W. Grand Avenue
P.O. Box 167

Eau Claire, WI 54702

Subscribed and sworn to before me by the said Affiant on the date below
designated.

Date: _ 2 bers Il, A020

  

XK x

“iy OT co
ie
